1
.■>

i
■v

n. - •

DOCKET NO.
Supreme Court, U.S.
filed

AUG 1 2 2021

SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK

TERM: 4, OCTOBER 2021 TO 2022
Jeffrey Alan Olson

) 8th DISTRICT COURT OF APPEALS

APPELLANT

) DOCKET NO. 21-1791

PETITIONER

) MN. FEDERAL DISTRICT COURT

) FILE NO. 0:20-CV-01249-PJS-DTS
) IN FORMA PAUPERIS
) PETITION FOR AN
VS.

) WRIT OF CERTIORARI FROM THE
) 8th CIRCUIT COURT OF APPEALS

APPELLEE'S,
RESPONDENT'S

)

UNITED STATES,
HENNEPIN COUNTY
Jeffrey Alan Olson, Prose, 380 Bert Street, P.O. Box 536, Lake Crystal, Minnesota, 56055 phone (507)7262678, Appellant, Petitioner.

U.S. Attorney, Mr. Liles Harvey Repp, 600 U.S. Courthouse 300 S. Fourth St. Minneapolis, MN. 55415;
Mr. Rafique Omar Anderson, U.S. DEPARTMENT of JUSTICE Ben Franklin Station P.O. box 480
Washington, D.C. 20044; Mr. Faruq Karim and Mr. James Keeler, Hennepin County District Attorney
Government Center 300 South Sixth Street Minneapolis, MN. 55487; Appellee's, Respondents.

RECEIVED
AUG 1 7 2021

gBSfiara&gfflg

s.

i
i.

v

QUESTIONS TO THE COURT

Rather than the President of the United States should Federal Judges, Federal and Appellate Judges and
United States Supreme Court Justices and Chief Justices be selected by Appellate Judges and Justices of
the United States and Supreme Court Justices for a totally independent judiciary?"

My second Question is did Hennepin County Violate This Petitioner's Constitutional Rights?

My third question is should the United States have barred this Petitioner from filing a federal Case for
many years?

LIST OF ALL PARTIES TO THE PROCEEDING

1. Jeffrey Alan Olson Pro se.
2.

President of the United States represented by United States.

3.

United States Senate represented by United States.

4.

U.S. Supreme Court represented by United States.

5.

United States Congress represented by United States.

6.

Hennepin County represented by Hennepin County District Attorney and United States.
TABLE OF CONTENTS

1.

Questions for the Court Page 1.

2.

List of all Parties to the Proceeding Page 1.

3.

Table of Contents page 1-4.

4.

Citations of the Official and Unofficial reports of the Opinions and Orders entered in the case by
Courts or Administrative Agencies Page 4-5

5.
1

A concise statement of the basis for jurisdiction in this Court. Page 5

V

6.

The date the judgment or order sought to be reviewed was entered. Page 5.

7.

The date of any order respecting rehearing. Page 5.

8.

The Constitutional Provisions, treaties, statutes, ordinances and regulations involved in the case.
Page 5-6.

9.

A concise statement of the Case setting out the facts. Page. 6-7.

10. A direct and concise argument amplifying the reasons relied on for Allowance of the writ. Page
6-7.
11. Petitioners brief and argument. Page 7-14.
12. Damages Petitioner is asking this Court to Order. Page 14.
13. Signature page and date. Page 14.
APPENDEX
1.

APPENDEX A, United States Appeals Court for the 8th Circuit dated June 2021 page 1.

2.

APPENDEX B, United States District Court for Minnesota dated 2/1/2021 page 2.

3.

APPENDEX C, United States District Court for Minnesota dated Oct. 6, 2020 page 3-10.

4.

APPENDEX D, United States District Court for Minnesota dated 2/1/2021 page 10-11.

5.

APPENDEX E, United States District Court for Minnesota dated May 19, 2020 page 11-13.

6.

APPENDEX F, Hennepin County District Court Order dated September 13,1996 page 13-18.

7.

APPENDEX G, Hennepin County District Court Order dated 12/29/2003 page 18-20.

8.

APPENDEX H, Hennepin County District Court Order dated May 1,1997 page 21-22.

9.

APPENDEX I, Hennepin County District Court Order dated 7/29/1998 page 23-35.

10. APPENDEX J, Hennepin County District Court Order dated March 11,1996 page 36-39.
11. APPENDEX K, Letter from 1st Lt. to Alan Albrecht dated 12 Feb. 1996 page 40-41.

2

X

TABLE OF AUTHORITIES

FEDERAL CASES:

1.

Mapp v. Ohio, 367 U.S. 643 (1961).

2.

Katz v. United States, 389 U.S. 347 (1967).

3.

Terry v. Ohio, 392 U.S. 1 (1968).

4.

Kentucky v. Powers, 201 U.S. 1 (1906).

5.

Glasser v. United States, 315 U.S. 60 (1942)

6.

Miranda v. Arizonia, 384 U.S. 436 (1966)

7.

Powell v. Alabama, 287 U.S. 45 (1932).

8.

Johnson vs. Zerbst, 304 U.S. 458 (1938).

9.

Gideon vs. Wainwright, 372 U.S. 335 (1963).

10. Atkins v. Virginia, 536 U.S. 304 (2002).
11. Baze v. Rees U.S., 543, U.S. 551, (Mar. 1, 2005).
12. Roger v. Simmons 543, U.S. 551, (Mar. 1, 2005).
13. Ashwander v. TVA, 297 U.S. 288, 300-11 (1936)
14. Troxel v. Granville, 530 U.S. 57,91 (2000).
15. United States v. Sprague, 282 U.S. 716 (1931).
16. United States v. Darby Lumber Co. 312 U.S. 100 (1941).
17. Gitlow v. New York, 268 U.S. 652 (1925).
18. Brown V. Board of Education, 347 U.S. 483 (1954).
U.S. CONSTITUTION
1. Constitutional Amendment IV.
2. Constitutional Amendment V.
3

I
t.

3. Constitutional Amendment VI.
4. Constitutional Amendment VII.
5. Constitutional Amendment IX.
6. Constitutional Amendment X.
7. Constitutional Amendment XIII.
8. Constitutional Amendment XIV.
9. Article III
FEDERAL REGULATIONS:
1.

Uniform Child Custody Jurisdiction and Enforcement Act of (1968).

2.

Soldiers and Sailors Act of (1957).

3.

Civil Relief Act (1957).

4.

Code of Conduct for United States Judges.

CITATIONS OF THE OFFICIAL AND UNOFFICIAL REPORTS OF THE OPINIONS AND ORDERS ENTERED IN THE
CASE BY COURTS OR ADMINISTRATIVE AGENCIES.

4

1.

Order 8th District Court of Appeals Dated 6-3-2021. Page 1.

2.

Order Minnesota Federal District Court Dated 2/1/21. Page 2.

3.

Order Minnesota Federal District Court Dated 10/6/2020 Page 3-10.

4.

Order Minnesota Federal District Court Dated 2/1/2021 Page 10-11.

5.

Order Minnesota Federal District Court Dated 5/19/2020 Page 11-13.

6.

Order Hennepin County District Court Dated 9/13/1996 Page 13-18.

7.

Order Hennepin County District Court Dated 12/29/2003 Page 18-20.

8.

Order Hennepin County District Court Dated 5/1/1997 Page 21-22.

9.

Order Hennepin County District Court Dated 7/29/1998 Page 23-35.

>
10. Order Hennepin County District Court Dated 3/11/1996 Page 36-39.

A CONCISE STATEMENT OF THE BASIS FOR JURISDICTION IN THIS COURT.

This court has jurisdiction by 28 U.S.C. 1253 (providing for direct appeal from interlocutory decisions of
three-judge courts. Also because only this court can grant the relief requested of the court by 28 U.S.C.

1651.
THE DATE THE JUDGEMENT OR ORDER SOUGHT TO BE REVIEWED WAS ENTERED.

The 8th district Court of Appeals entered order on 06/03/2021.

THE DATE OF ANY ORDER RESPECTING REHEARING. AND THE DATE AND TERMS GRANTING AN
EXTENTION OF TIME TO FILE THE PETITION FOR A WRIT OF CERTIORARI.

Dated August 2, 2021 and 60 days from that Date.

THE CONSTITUTIONAL PROVISIONS. TREATIES. STATUTES. ORDINANCES. AND REGULATIONS INVOLVED
IN THE CASE, SET OUT VERBATIM WITH APPROPRIATE CITATIONS.

5

1.

Constitutional Amendment IV.

2.

Constitutional Amendment V.

3.

Constitutional Amendment VI.

4.

Constitutional Amendment VII.

5.

Constitutional Amendment IX.

6.

Constitutional Amendment X.

7.

Constitutional Amendment XIII.

8.

Constitutional Amendment XIV.

9.

Soldiers and Sailors act.

I-

10. Uniform Child Custody Jurisdiction and Enforcement Act
11. Code of Conduct for United States Judges.

A CONCISE STATEMENT OF THE CASE SETTING OUT THE FACTS MATERIAL TO CONSIDERATION OF THE
QUESTIONS PRESENTED REVIEW OF A STATE-COURT JUDGMENT AND REVIEW OF A UNITED STATES'
JUDGMENT.

1.

Petitioner asks the Court to review Hennepin County Court Order Referee Marybeth Dorn
signed by Judge William R. Howard Dated September 13,1996. For violations of Constitutional
rights and violation of the Soldiers and Sailors Act.

2.

Petitioner asks the Court to review Hennepin County Court Order Judge David M. Duffy dated 729-98. After Petitioner filed and raised questions in Hennepin County Court of violations of
Soldiers and Sailors Act and filed a case in Minnesota Federal District Court Petitioners rights to
see his son unsupervised and his ability to continue his chosen career in the United States
Marines were diminished.

3.

Petitioner asks the Court to review Federal Court Order Judge Paul M. Magnuson dated 4-2-04.
Petitioner filed a case in Federal Court to address the violations of Petitioners rights by
Hennepin County State Court.

4.

Petitioner asks the Court to review Court Order Judge Paul A. Magnuson Dated May 19, 2020.
Petitioner was not allowed to file a case in United States Federal Court for almost 20 years and
Petitioners Constitutional rights were violated as a result, Justice delayed is Justice denied.

5.

Petitioner asks the Court to review Court Order 8th District Court of Appeals Dated 06/03/2021.
Petitioner asked this Court to review these violations and could not or would not address them.
A DIRECT AND CONCISE ARGUMENT AMPLIFYING THE REASONS RELIED ON FOR ALLOWANCE OF
THE WRIT.

6

i

k.

This Petitioner tried both in Hennepin County Court and Minnesota Federal Court and the 8th district
Court Of Appeals to address these most basic rights afforded all citizens. But this Petitioner ran into
road block after roadblock in these courts. Because Petitioner was Native American, Mentally-Disabled
and Poor. The courts simply felt in Petitioners opinion that Mr. Olson's rights meant nothing to them $is
can be seen especially in Judge Duffy's orders.

PETITIONERS BRIEF AND ARGUMENT

Petitioner's rights were violated to include United States Constitutional Amendment IV, V, VI, VII, IX, X,
XIII and XIV.

Petitioner was accused of domestic assault but no trial ensued and no attorney was assigned. No
police reports of the assault or charges made to police officers. But Hennepin County took away
Petitioners right to see his son unsupervised for 18 years against social worker write-ups declaring the
petitioner fit to have unsupervised visitation.

Petitioner raised violations of the Soldiers and Sailors Act and Uniform Child Custody and
Enforcement Act violations by Hennepin County Court.

Uniform Child Custody and Enforcement Act (the UCCJEA) a uniform state law that governs decision
making about jurisdiction in interstate custody cases.
Hennepin County violated the UCCJEA by removing the dissolution case from California where
jurisdiction was proper and established by residency of both Mr. and Mrs. Olson and the residency of
the minor children. Under false and incomplete allegations of spousal abuse the case was removed to
Hennepin County see Appendex F. This Petitioner agreed to allow Hennepin County to prove they had
jurisdiction and Hennepin County never did in fact this Petitioner was not even allowed to be at the
hearing see Appendex F, k, and j. in violation of Soldiers and Sailors Act because they knew they did not
have jurisdiction. Then Judge Duffy swept the whole thing under the rug and threatened this Petitioner
7

L
*
in an elevater at the Court House and told this Petitioner he would do time in prison if I continued to
persue my rights in federal court. See Judge Duffy order Appendex h, I, and g.

The case should have stayed in California and at the least returned to California after these violations
were raised in Court by this Petitioner. But they were not and Petitioner raised all of them again in
Federal Court and at the 8th District Court of Appeals. Judge Magnuson found this amusing why
Petitioner does not know. Petitioner starts having mental issues with his Service Connected disability
and could only see his son on the limited access the Hennepin County Court gave this Petitioner.

Petitioner is arguing this is all the result of how judges and justices are appointed to the Court by the
President of the United States and Governors of the states. No other explanation exists. Why else
would Judges not follow the laws that govern this great country of the United States? Unless they are
told to overlook minority citizens because their rights do not matter.

Violations of 4th Amendment, Mapp v. Ohio

Mapp v. Ohio, 367 U.S. 643 (1961), was a landmark decision of the U.S. Supreme Court in which the
Court ruled that the exclusionary rule, which prevents prosecutors from using evidence in court that was
obtained by violating the Fourth Amendment to the U.S. Constitution applies not only to the U.S. federal
government, but also to the U.S. states.
Petitioner is arguing that Hennepin County kept doing mental health examinations to deprive this
Petitioner of his rights to see his son.

Katz v. United States,389 U.S. 347 (1967) was a landmark decision of the U.S. Supreme Court in which
the Court redefined what constitutes a "search" or "seizure" with regard to the protections of the
Fourth Amendment to the U.S. Constitution, to include as a constitutionally protected area "what (a
person) seeks to preserve as private, even in an area accessible to the public."
Petitioner's former wife had the child taken to Ms. Ellingboe's office for mental health of the child so
visitation remained supervised because Petitioners ex-wife wanted to enter evidence that the child was
wetting the bed because he was afraid of his father. Where the fact of the matter was this Petitioner

8

L
>
was denied access to the child for several years and the child had no memory of his father except for
what this Petitioners ex-wife was putting in his head.

Terry v. Ohio, 392 U.S. 1 (1968), was a landmark decision of the Supreme Court of the United States in
which the Court ruled that it is unconstitutional for American police to stop and frisk a person they
suspect is involved in a crime, and that this violates the Fourth Amendment to the Constitution.
After a court hearing in front of Judge Duffy this Petitioner and his brother got in an elevator to leave
the Hennepin County Government center and Judge Duffy got in the elevator to go down with the
Petitioner and his brother. Judge Duffy said to this Petitioner you have your chance to handle this man
to man. This Petitioner just looked at the judge in shock and when the door opened two Hennepin
County deputies asked the judge if he was ok and Judge Duffy said yes that "pussy" wouldn't do
anything.

Violation of the 5th Amendment. Kentucky v. Powers, 201 U.S. 1 (1906)

Glasser v. United States, 315 U.S. 60 (1942) was a landmark decision of the U.S. Supreme Court on two
issues of constitutional criminal procedure. Glasser was the first Supreme Court decision to hold that
the Assistance of Counsel Clause of the Sixth Amendment required the reversal of a criminal defendant's
conviction if his lawyer's representation of him was limited by a conflict of interest. Further, Glasser
held that the exclusion of women violated Impartial Jury Clause.
The Petitioner is arguing that the Impartial Jury Clause also applies to a judge or justice in Glasser.
Miranda v. Arizona (1966)

Miranda v. Arizona, 384 U.S. 436 (1966), was a landmark decision of the U.S. Supreme Court in which
the Court ruled that the Fifth Amendment to the U.S. Constitution restricts prosecutors from using a
person's made in response to interrogation in police custody as evidence at their trial unless they can
show they were informed of their right to consult with an attorney before and during questioning and of
the right against self incrimination.
All these cases talk about double jeopardy and self-incrimination.

Judge Duffy made this Petitioner take the stand and this Petitioner had no attorney to represent him
and Petitioner was not allowed to give rebuttal to testimony this Petitioner gave. Where the whole

9

.c

story was not told about how this Petitioner's ex-wife came after Mr. Olson with a butcher knife before
he supposedly committed domestic assault by swatting his ex-wife with his hand on her but.

Violations of the 6th Amendment.

Powell v. Alabama, 287 U.S. 45 (1932) was a landmark United States Supreme Court decision in which
the Court reversed the convictions of 9 young black men for allegedly raping 2 white women on a freight
train.
Johnson vs. Zerbst, 304 U.S. 458 (1938) The United States Supreme Court agreed to hear the case and
overturned the decisions of the lower courts. In a 6 to 2 decision, the court held that the federal court
had infringed upon Johnson's life and liberty by not giving him counsel to defend him during trial.
Gideon vs. Wainwright, 372 U.S. 335 (1963), the Court unanimously held that in a criminal case states
are required under the 6th Amendment of the Constitution to provide an attorney to defendants who
are unable to afford one.
Hennepin County should have assigned counsel if they were going to charge this petitioner with
domestic assault and instead took away Petitioners freedom to be in the United States Marines and see
his son unsupervised.

Violations of the 8th Amendment.

Atkins v. Virginia, 536 U.S. 304 (2002) a case in which the Supreme Court of the United States ruled 6-3
that executing people with intellectual disabilities violates the Eighth Amendment ban on cruel and
unusual punishment.
Baze v. Rees U.S. Supreme Court, 553 U.S. Apr 16, 2008

Roger v. Simmons U.S. Supreme Court 543, U.S. 551, Mar. 1, 2005

Cruel and unusual Punishment.

Taking away a father's, his right to see his son where all visitations the Petitioner received were
controlled by this Petitioners former relatives. There was no relationship building between the father
and the minor child it was all controlled and combative from the relatives and that is how Hennepin
County wanted it. It was set up to crucify this Petitioner.

10

Violations of the Ninth Amendment.

The language and history of the 9th Amendment reveal that the Framers of the Constitution believed
that there are additional fundamental rights, protected from government infringement which exist
alongside those fundamental rights.

This 9th Amendment right is where this Petitioner is arguing his right to an impartial Judge. The framers
set out to cover all rights but this right to an impartial judge is a basic fundamental right to judicial
proceedings. This right of the people is being violated by the President of these United States and
Governors of these states in how they pick judges and justices for the court. By having a jury of judges
or justices pick them based upon no political or idealization process puts the courts back on track to
what the framers of the Constitution intended. The President of the United States and Governors of the
states are picking judges and justices to formulate how they will rule on the bench and this then violates
the 9th Amendment to the Constitution.

For what is more fundamental than judicial due process and the rights that go with it.

Ashwander v. TVA, 297 U.S. 288, 300-11 (1936), was a United States Supreme Court case that provided
the first elaboration of the doctrine of "Constitutional avoidance".
Troxel v. Granville, 530 U.S. 57,91 (2000), is a case in which the Supreme Court of the United States,
citing a constitutional right of parents to direct the upbringing of their children, struck down a
Washington state law that allowed any 3rd party to petition state courts for child visitation rights over
parental objections.
Violations of the 10th Amendment.

United States v. Sprague, 282 U.S. 716 (1931), The Court found that the Constitution explicitly
authorized Congress to determine the method used in ratifying amendments article 5 states that any
amendment "shall be valid to all Intents and Purposes as part of this Constitution.
Petitioner is arguing that Hennepin County and when brought before it the United States did not honor
the Soldiers and Sailors Act and the Child and Custody Act of the United States in Court Orders see
Referee Dorn, Judge Duffy, Minnesota Federal District Court, and 8th District Court of Appeals.

11

United States v. Darby Lumber Co., 312 U.S. 100 (1941), was a case in which the United States Supreme
Court upheld the Fair Labor Standards Act of 1938, holding that the U.S. Congress had the power under
the Commerce Clause to regulate employment conditions.
All these cases establish infringement of States rights and Citizens rights by the Federal Government.

Clearly in this case both Hennepin County and the United States overstepped in selecting judges and
justices which infringed upon Citizens rights to an impartial judge or justice by the Executive Branch.
Violation of the 14th Amendment.

Clearly the Petitioner is arguing his rights under the Soldiers and Sailors act and the Uniform Child
custody jurisdiction and Enforcement Act.

Hennepin County clearly did not take into account for these greet acts put into law by Congress and
signed by the President. But Hennepin County disregarded both Acts as can be seen in Court orders
along with the United States.

Gitlow v. New York, 268 U.S. 652 (1925) the Court incorporated the bill of rights. Government should
only be allowed to limit the protection of free speech when there is clear and present danger.
Petitioner is arguing that both Hennepin County specifically Judge Duffy and Minnesota Federal District
Court by not allowing this Petitioner access to the courts to file his case of violations of Constitutionally
protected free speech where this Petitioner clearly did not present a clear and present danger by doing
so to anyone else.

Brown v. Board of Education, 347 U.S. 483 (1954), the U.S. Supreme Court in which the Court ruled that
U.S. state laws establishing racial segregation in public schools unconstitutional.
In most of these cases the Court ruled separate is not equal.

Civil Rights Act of 1957, is tasked with enforcing the Service members Civil Relief Act ("SCRA"), 50 U.S.C.
&&3901-4043 The SCRA covers protections and this case CIVIL JUDICIAL PROCEEDINGS. Please see
letter from Petitioner's 1st Lt in Appendex I and Referee Dorn Court Order in Appendex Judge Duffy

12

Order dated 7-29-98 Referee Dorn refused to reschedule the hearing in violation of SCRA. Judge Duffy
lists all the Hearings in his Court Order dated 7-29-98.

In the Petitioners case the Petitioner is arguing why his opportunity's to pursue a life of happiness not
given to him when countless people go through the court system and are not treated with such
disregard for basic fundamental rights it makes no sense. The only answer is racial prejudice, sexual
prejudice, and prejudice against a disabled person of Native American decent.

In Judge Patrick J. Schiltz Order dated 2/1/21 he mistakenly said that this Petitioners wife filed for
dissolution in California. This was not correct. This Petitioner (Mr. Olson) filed for dissolution in
California and the judge in California determined that he lacked jurisdiction based upon a incomplete
allegation that she was abused by her husband in base housing. This Petitioner said the Minnesota
court had no evidence of that occurring except Paula Zamzow's incomplete allegation. Where the fact is
this Petitioner (Mr. Olson) was attacked with a knife prior to Mr. Olson swatting Ms. Zamzow on the
buttocks. But California declined jurisdiction anyways as Ms. Zamzow told the California Court that she
could prove it and never did. The only thing this Petitioner agreed to was if they could not prove they
had jurisdiction that I would sue them forever in Federal Court.

In judge Duffy's Order dated 7-29-98. The judge or his clerk exaggerated and took out of context
answers to questions proposed by opposing counsel. The judge had already decided to paint this
Respondent in the Dissolution case as non-cooperative and that is the furthest thing from the truth This
Respondent at the time bent over backwards to accommodate all the courts orders. The court was
trying to trap this Respondent in anyway it could and I had to be aware of this at all times. This
Petitioner after the elevator occurrence with Judge Duffy felt that I could not trust the way the court
was setting things up as the Judge told me you will be in prison by Christmas. I waited to see my son
when he would be older and could witness any foul play by Hennepin County and my Ex-wife and her

13

i.

family, I felt that if I was going to be framed I at least needed a fighting chance to defend myself from
these ridiculous orders and attorney fees. I certainly would have hired an attorney but with paying my
ex-wifes attorney bills I could not afford one. I always was unsure if I filed the motions or not in
Hennepin County because of my mental illness and made mistakes along the way by filing to much
paper work but the Court of Hennepin County was against me the whole way so it really did not matter,
I was going to lose in Hennepin County anyway. My Ex-wives Sister Suzy Zamzow came out of Judge
Duffy's Chambers before each hearing and there was nothing I could afford to do about it. The reason
that this Petitioner is suing the Supreme Court of the United States is so the Courts interests are
represented along with the Executive branch should the Executive branch decide to only argue the case
from their perspective along with Congress and the Senate.

DAMAGES THIS PETITIONER IS ASKING THIS COURTTO ORDER.

Punitive damages to be divided between Hennepin County and the United States in the amount of 15
million dollars to 30 million dollars as the Court finds Appropriate.

S-/Z-20Z(
Date

Jeffrey A. Olson

380 Bert St. P.O. Box 536

Lake Crystal, MN. 56055

Ph. 507-726-2678

Notary of Public

Date

14

gP% NANCY ANN ETHERIN6T0N
Notary Pubiic-Minnesota ■
My Commission Expires Jan 31,2025;

